<2>

g /

jJla
No:I SC£0~ »*/'

y—

l

December Term, 2020
IN THE
Supreme Court, U.S.
FILED

SUPREME COURT OF THE UNITED STATES

MAR 0 1 2021
OFFICE OF THE CLERK

JIMMY LEE TOLIVER, Petitioner
V.

STATE OF FLORIDA, Respondent
r ■

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF FLORIDA
PETITION FOR A WRIT OF CERTORIARI
Jimmy Lee Toliver for himself and on behalf of all
similarly situated Florida sentenced defendants

Jimmy Lee Toliver DC#J09505
Union Correctional Institution
P.O.Box 1000
Raiford, Florida 32083
Petitioner pro se

1.

*4*

OUESTION(S) PRESENTED
The question(s) presented in this case is whether similarly situated criminal
defendants should be treated equally in pipeline cases where erroneous jury instructions
have been giving? And;
Is it unconstitutional to give an erroneous jury instruction which relieves the
States burden of proof?

A.

*

)

t
J

2.

PARTIES TO THE PROCEEDING
AND RULE 29.6 DISCLOSURE
The caption of this case contains the names of all parties to this proceeding, both
here and before the Supreme Court of Florida. No corporations or parent corporations
are involved in this matter.
TABLE OF CONTENTS
Page(s)
QUESTION PRESENTED

2

PARTIES TO THE PROCEEDING AND RULE 29.6 DISCLOSURE

3

INDEX TO APPENDICES

4

5-6

TABLE OF AUTHORITIES
OPINIONS BELOW

7

BASIS FOR INVOKING JURISDICTION

8

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

8
9-10

STATEMENT OF THE CASE

11-17

REASONS FOR GRANTING THE WRIT
CONCLUSION

17

CERTIFICATE OF SERVICE

18

3.

INDEX TO APPENDICES

APPENDIX-A-

Opinion of the Florida Supreme Court,

APPENDIX-B-

Opinion of the First District Court of Appeal

4.

'1

TABLE OF AUTHORITIES CITED
Page(s)

Cases
Barthel v. State, 882 So.2d 1054 (Fla. 2nd D.C.A. 2004)

16

Bullington v. Missouri, 451 U.S. 430,432 (1981)

12

Burroughs v. State, 997 So.2d 522 (Fla. 1st D.C.A. 2008)

14

Duncan v. Louisiana, 391 U.S. 145, 149-150 (1968).

13

Hankerson v. North Carolina, 432 U.S. 233, 240 (1977)

12

Francis v. Franklin, 471 U.S. 307, 325 (1985)

17

Houston v. Lack, 487 U.S. 266, (1988)

18

Luckey v. State, 979 So.2d 353 (Fla. 5,h D.C.A. 2008)

16

Marshall v. State, 240 So.3d 111 (Fla. 3rd D.C.A. 2018)

15,16

Monfiston v. State, 924 So.2d 61 (Fla. 4th D.C.A. 2006)

16

Montgomery v. State, 70 So.3d 603 (Fla. 1st D.C.A. 2009)

14

Oregon v. Mathiason, 429 U.S. 492,493 (1977)

12

Polewarzyk v. State, 978 So.2d 250 (Fla 5th D.C.A. 2008)

16

Sandstrom v. Montana, 442 U.S. 510, 523 (1979)

17

Smith v. State, 598 So.2d 1063 (Fla. 1992)

16

State v. Montgomery, 39 So.3d 252 (Fla. 2010)

10

Toliver v. State, 953 So.2d 713 (Fla. 1st DCA 2007)

9

5.

Toliver v. State, 966 So.2d 971 (Fla. 2007)

9

Toliver v. State, 29 So.3d 1147 (Fla. 1st DCA 2010)

10

Toliver v. State, 33 S0.3d 38 (Fla. 1st DCA 2010)

9

Toliver v. State, 2010 Fla. App. Lexis 7210 (Fla. 1st D.C.A 2010)

10

Toliver v. State, 294 So.3d 428 (Fla. 1st D.C.A 2020)

7

STATUTES AND RULES
§782.04(2), Florida Statutes

9

28 U.S.C. §1257(a)

6

28U.S.C. §1746

18

\

6

Sup. Ct. R. 13.1
OTHER
Sixth Amendment

passim

Fourteenth Amendment

passim

6.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment
of the Florida Supreme Court in this case.
OPINION BELOW
[ ] For cases from Federal Courts: Not applicable
[ ] For cases from State Courts:
The opinion of the Florida Supreme Court, which is the highest state court to
review the merits of this case appears at Appendix “A” to the petition and is unreported.
The opinion of the First District Court of Appeal which is reported at Toliver v.
State, 294 So.3d 428 (Fla. 1st D.C.A 2020) Appendix-”B”

7.

w*

BASTS FOR INVOKING JURISDICTION
The judgment of the Florida Supreme Court that is the subject of this petition was
entered on October 26th 2020. A petition for writ of certiorari to review that judgment is
timely filed within 150 days after its entry. Sup. Ct. R. 13.1, as modified by the Court’s
order dated March 19, 2020. As this petition was filed within that number of days after
the Florida Supreme Court entered the judgment and the denial of petitioner’s
Application to file a Second or Successive Habeas Corpus Petition, it is timely, and the
Court’s jurisdiction to review the question presented exists pursuant to 28 U.S.C.
§ 1257(a)

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The question presented involves the Equal Protection, Due Process Clauses, and
ex post facto law of the Fourteenth Amendment to the United States Constitution which
provides in relevant part: “.. .No State shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United States; nor shall any State deprive
any person of life liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.”
8.

t

STATEMENT OF THE CASE
James Toliver is a prisoner in Florida serving a sentence of life for the charge of
second degree murder, pursuant to §782.04(2), Florida Statutes. Petitioner entered a plea
of not guilty and proceeded to trial by jury on April 26-27, 2006. Petitioner was
sentenced on May 25, 2006.
Toliver had a direct appeal with the First District Court of Appeal which was per
curiam affirmed on April 9, 2007. Toliver v. State, 953 So.2d 713 (Fla. 1 DCA 2007).
Petitioner sought discretionary review in the Florida Supreme Court and on September
10, 2007 the Florida Supreme Court declined to accept jurisdiction and denied the
petition for review. Toliver v. State, 966 So.2d 971 (Fla. 2007).
Mr. Toliver then filed his first Motion for Postconviction Relief pursuant to
Florida Rule of Criminal Procedure 3.8501 on February 26, 2008 alleging several claims
of ineffective assistance of counsel and after an evidentiary hearing held on October 8,
2008, the trial court denied the motion on October 13 2008. Petitioner timely appealed
that decision which was per curiam affirmed. Toliver v. State, 33 S0.3d 38 (Fla. 1st DCA
2010).

1 It should be noted that Toliver amended his Motion for Postconviction Relief on three separate
occasions prior to the decision by the trial court
9.

#

a
Prior to the First District Court of Appeal rendering its decision^ on Toliver’s
appeal from the denial of his postconviction relief motion, Mr. Toliver filed a Petition
for Writ of Habeas Corpus, pursuant to Rule 9.141(c) of the Florida Rules of Appellate
Procedure alleging ineffective assistance of appellate counsel in reference to the
decision of the Florida Supreme Court’s decision in State v. Montgomery, 39 So.3d 252
(Fla. 2010). The First District Court of Appeal denied the habeas petition without
explanation. See Toliver v. State, 29 So.3d 1147 (Fla. 1st DCA 2010).
Throughout the State court proceedings below, petitioner timely presented the
erroneous jury instructions issue to the courts, however, the Florida courts continued to
deny all motions and petitions based on timeliness and never addressed the issue on the
merits. Furthermore, Mr. Toliver retained private counsel to represent him and who
argued that Toliver’s case was not final on April 8th 2010 when the Florida Supreme
Court made its decision in State v. Montgomery, 39 So.3d 252 (Fla. 2010). In fact, Mr.
Toliver’s case was not final until April 23rd 2010. See Toliver v. State, 2010 Fla. App.
Lexis 7210 (Fla. 1st D.C.A 2010).
Thus, this petition raises claims of Equal Protection of the laws, Due Process, and
mostly importantly, the treatment of Similarly Situated defendants who fall within the
“Pipeline” decision of either the United States Supreme Court or the Florida Supreme
Court.

10.

1

REASONS FOR GRANTING THE PETITION
The Jury Instructions given in this case were
unconstitutional where they relieved the State of its
burden of proof and denied the petitioner equal
protection of the law where the issue was raised and
petitioner was not given the “pipeline decision
application” as was required by controlling decisional
law.
The question presented in this Petition is a Federal question of substance which
involves a defendant in Florida being denied the same and equal protection of the laws
as they apply to the Similarily Situated Criminal Defendants.
Crucial to the exercise of this Court’s certiorari jurisdiction is whether the
controlling issue in the state court case is a federal issue, that is, an issue arising under
the United States Constitution or under federal laws or treaties. But the fact that a federal
question is found in the case doesn’t mean, standing alone, that a state decision will be
reviewed. First, the federal question must be a substantial question. Second, the federal
question must have been properly raised in the state courts. This is required because the
state courts must first be afforded an opportunity to consider and decide the federal
question. Third, even then this court may not take the case if the state court’s judgment
can be sustained on an independent ground of state law.
In this petition, it is clear that the issue presented is a substantial issue of federal
law that arises under the United States Constitution. The issue has properly been raised

11.

in the highest state court and could not and cannot be sustained on any independent
ground of state law. Therefore, the issue here meets all the criteria necessary for
consideration by the Court under its certiorari jurisdiction.
Certiorari may also be granted to determine whether a state court has properly
interpreted, applied, or extended a prior Supreme Court decision in a given situation. See
e.g., Bullington v. Missouri, 451 U.S. 430, 432 (1981) (certiorari granted on issue
whether reasoning of prior Court precedent also applies to different kind of sentencing
procedure); Oregon v. Mathiason, 429 U.S. 492, 493 (1977) (certiorari granted because
state court “has read Miranda too broadly”); Hankerson v. North Carolina, 432 U.S.
233, 240 (1977) (certiorari granted on issue whether state court correctly declined to
give retroactive effect to prior Supreme Court decision).
Habeas precedent places an especially heavy burden on a defendant who seeks to
show constitutional error from a jury instruction that quotes a state statute. Even if there
is some ambiguity, inconsistency* or deficiency in the instruction, such an error does not
necessarily constitute a due process violation. Rather, the defendant must show both that
the instruction was ambiguous and that there was a reasonable likelihood that the jury
applied the instruction in a way that relieved the state of its burden of proving every
element of the crime beyond a reasonable doubt. In making this determination, the jury
instruction may not be judged in artificial isolation, but must be considered in the
context of the instructions as a whole and the trial record. Because it is not enough that

12.

there is some slight possibility that the jury misapplied the instruction, the pertinent
question is whether the ailing instruction by itself so infected the entire trial that the
resulting conviction violates due process.
In the era of our Nation's founding, the right to a jury trial already had existed and
evolved for centuries, through and alongside the common law. The jury was considered
a fundamental safeguard of individual liberty. See The Federalist No. 83, p. 451 (B.
Warner ed. 1818) (A. Hamilton). The right to a jury trial in criminal cases was part of
the Constitution as first drawn, and it was restated in the Sixth Amendment. Art. Ill, 2,
cl. 3; Arndt. 6. By operation of the Fourteenth Amendment, it is applicable to the States.
Duncan v. Louisiana, 391 U.S. 145, 149-150, 88 S. Ct. 1444, 20 L. Ed. 2d 491(1968).
Furthermore, the jury is a central foundation of our justice system and our
democracy. Whatever its imperfections in a particular case, the jury is a necessary check
on governmental power. The jury, over the centuries, has been an inspired, trusted, and
effective instrument for resolving factual disputes and determining ultimate questions of
guilt or innocence in criminal cases. Over the long course its judgments find acceptance
in the community, an acceptance essential to respect for the rule of law. The jury is a
tangible implementation of the principle that the law comes from the people.
It also is an inherent and indispensable requisite of a fair and impartial trial under
the protective powers of our Federal and State Constitutions as contained in the_due

13.

process of law clauses that a defendant be accorded the right to have a Court correctly
and intelligently instruct the jury on the essential and material elements of the crime
charged and required to be proven by competent evidence.
In this case, there is no doubt that the “Manslaughter By Act” jury instruction
given in this case was ambiguous and that there was a reasonable likelihood that the jury
applied the instruction in a way that relieved the state of its burden of proving every
element of the crime beyond a reasonable doubt.
Petitioner first raised the issue of the erroneous jury instruction in his first Petition
for Writ of Habeas Corpus, citing to Burroughs v. State, 997 So.2d 522 (Fla. 1st D.C.A.
2008) in which the defendant there argued that the trial court fundamentally erred in
giving the standard jury instruction for the lesser included offense of Manslaughter by
Act because it erroneously “included” the provision that the defendant intended to cause
the victims death, (emphasis added).
The Florida Supreme Court’s decision in State v. Montgomery, 39 So.3d 252 (Fla.
2010) shows that the jury instruction in question was of a constitutional nature and that
the given of this instruction relieved the State of its burden of proving every element of
the crime of second degree murder beyond a reasonable doubt, and adding an element to
the crime of manslaughter. It should also be noted that the Florida Supreme Court’s
decision did nothing but affirm the decision of the First District Court of Appeal in

14.

Montgomery v. State, 70 So.3d 603 (Fla. 1st D.C.A. 2009) which held that “The trial
court fundamentally erred in giving a standard jury instruction for manslaughter by act,
as it erroneously suggested that intent to kill was an element of that crime”
Furthermore, the states position in the courts below is that the petitioner was not
entitled to relief because he was not in the “pipeline” for the decision in Montgomery to
be applied to his case. However, the facts of petitioner’s case do in fact put his case in
the “pipeline” for several reasons.
The petitioner has consistently presented this issue to the courts below starting
when Montgomery was first decided and the question was certified by the First District
Court of Appeal in February of 2009, while petitioner’s case was still pending in the
Florida Supreme Court.
In Marshall v. State, 240 So.3d 111 (Fla. 3rd D.C.A. 2018), a similarly situated
case, the defendant there was charged with Second Degree Murder on April 2nd 2004,
whereas petitioner in this case was charged with Second Degree Murder and was not
convicted until April 27th 2006. The defendant in Marshall filed a Petition for Writ of
Habeas Corpus alleging ineffective assistance of appellate counsel for failing to file a
supplemental brief in his direct appeal citing to. Montgomery v. State, 70 So. 3d 603 (Fla.
1 st DCA2009). Petitioner in this case raised the identical issue.

15.

In the courts below, the State of Florida has consistently denied relief to the
petitioner based on the reasoning that petitioner’s case was not in the “pipeline” because
a postconviction claim raised in a motion for postconviction relief or in a petition for a
writ of habeas corpus does not qualify as a “pipeline” case due to the fact that
petitioner’s direct appeal was final at the time that the First District decided
Montgomery.
However, the Florida Supreme Court and several of the District Courts of Appeal
have held otherwise. In Smith v. State, 598 So.2d 1063 (Fla. 1992) the Florida Supreme
Court held that “Any decision of the Florida Supreme Court announcing a new rule of
law, or merely applying an established rule of law to a new or different factual situation,
must be given retrospective application by the courts of this state in every case pending
on direct review or not yet final. Fla. Const. Art. I, § 9 & 16. To benefit from the change
in law, defendant must have timely objected at trial if an objection was required to
preserve the issue for appellate review.” See also Luckey v. State, 979 So.2d 353 (Fla. 5th
D.C.A. 2008); Polewarzyk v. State, 978 So.2d 250 (Fla 5th D.C.A. 2008); Monfiston v.
State, 924 So.2d 61 (Fla. 4th D.C.A. 2006); Barthel v. State, 882 So.2d 1054 (Fla. 2nd
D.C.A. 2004); and Marshall v. State, 240 So.3d 111 (Fla. 3rd D.C.A. 2018).
Lastly, petitioner’s case cannot be deemed final when his case was still pending
on a Petition for Writ of Habeas Corpus in February 2009, wherevMontgomery was not
decided and a question certified by the First District Court of Appeal until February 12th
16.

2009 and decided on April 8th 2010 when the Florida Supreme Court made its decision
in State v. Montgomery, 39 So.3d 252 (Fla. 2010). In fact, Mr. Toliver’s case was not
final until April 23rd 2010. See Toliver v. State, 2010 Fla. App. Lexis 7210 (Fla. 1st
D.C.A 2010).
Furthermore, Toliver’s argument that the trial court's jury instructions violated his
constitutional right to due process has merit. As shown above, the Florida Supreme
Court in Montgomery agreed that the jury instruction, as given, plainly violated due
process. Instructing the jury that it “must” infer Toliver’s specific intent removed the
issue of intent from the jury's consideration and relieved the State of its burden to prove
each element of the crime beyond a reasonable doubt. See Sandstrom v. Montana, 442
U.S. 510, 523, 99 S. Ct. 2450, 61 L. Ed. 2d 39(1979). Such presumptions, this Court has
held, violate the Due Process Clause. Francis v. Franklin, 471 U.S. 307, 325, 105 S. Ct.
1965, 85 L. Ed. 2d 344(1985).
CONSLUSION
The petition for a writ of certiorari should be granted.
Respectfully Submitted,

^immyl^ee Toliver DC# J09505
Union Correctional Institution
P.O. Box 1000
Raiford, Florida 32083-1000
17.

CERTIFICATE OF SERVICE
I Jimmy Lee Toliver, HEREBY CERTIFY, under 28 U.S.C. §1746 and the
authority of Houston v. Lack, 487 U.S. 266, 108 S. Ct. 2379, 2382, 101 L. Ed. 2d 245
(1988). (Prisoner’s mailbox rule) that I have placed a true and correct copy of the
foregoing “Petition for Writ of Certiorari and Appendix to Petition for Writ of
Certiorari” into the hands of prison officials for mailing to: Office of Attorney General
The Capitol PL-01, Tallahassee, Florida 32399-1050 On this
of

oyTh

day

20211.

Respectfully Submitted,

‘^Jimnfy^Lee Toliver DC# J09505
Union Correctional Institution
P.O. Box 1000
Raiford, Florida 32083-1000

18.

